OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

7/15/2020
WR-91,216-01
Tr. Ct. No. CR17-0124-01
VALLEY, RIGGIN
This is to advise that the Court has denied without written order the application for
writ of habeas corpus on the findings .'of the-trial court without a hearing and on the
Court’s independent review of the record.
Deana Williamson, Clerk
RIGGIN VALLEY
NEAL UNIT - TDC # 2165544
9055 SPUR 591
AMARILLO, TX 79107

u

fr-

y

iEBH-AB

1

\U

\

■!

"70107

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

P

r~

-zy.

7/31/2020
VALLEY, RIGGIN
Tr. Ct. No. CR17-0124-01
WR-91,216-01
Pursuant to Texas Rules of Appellate Procedure, Rule 79.2 (d), applicant’s Motion
for Reconsideration/Rehearing has been dismissed.
Deana Williamson, Clerk
»-• 1
.'O
RIGGIN VALLEY S
NEAL UNIT - TDC # 2165544
9055 SPUR 591
AMARILLO, TX 79107

Ir-'iliuNftB

79107

&
r-

€/Ki

6
Cause No. CR17-0124-01

Filed: 04/22/2020 2:08 p.m.
Sharena Gilliland
District Clerk
Parker County, Texas
Kathryn

EX PARTE

RIGGIN GIDEON VALLEY

§

IN THE 415th JUDICIAL

§

DISTRICT COURT OF

§

PARKER COUNTY, TEXAS

San Miguel

Memorandum, Findings of Fact,
Conclusions of Law, and Order
Memorandum
Applicant was indicted on March 9, 2017, for possession of a
controlled substance, methamphetamine, of 4 grams or more but less than
200 grams, with intent to deliver. On September 21, 2017, pursuant to a
plea agreement, applicant pleaded guilty and received a sentence of 10
years in the Institutional Division, TDCJ. The trial court certified that,
because it was a plea-bargained case, applicant did not have a right to
appeal and he did not attempt to appeal his conviction.
Applicant filed an application for writ of habeas corpus on March 17
2020, in which he raises six grounds for relief. His first, second, third,
fourth, and sixth grounds allege that trial counsel provided ineffective
assistance in that counsel:
1. “Failed to pursue motion to suppress and preserve
objections on hearing rendering a structural defect.”

2. Failed to grant “practicable assistance in defending
applicant’s rights and misled applicant to enter plea
involuntarily.”
3. “Deprived applicant of appellate review of objections in
motion to suppress ‘hearing’ and resulted in procedural
defect.”
4. “Failed to file and pursue motion to suppress based on a
warrantless search of a person’s property.”
5. Failed “to grant practicable assistance in objection and filing
appeal entirely” resulting in structural error.
Applicant’s fifth ground alleges:
“cumulative due process violations occurring from perjured
statement to Coleman County Grand Jury vitiates convictions
due to structural errors.”
Applicant also has attached a memorandum in support of his claims.
The Court has considered the records of the case, including the trial
records and the affidavit of Tommy Wise, applicant’s trial counsel, and
recommends that relief be denied.
Findings of Fact
1.

Tommy Wise was appointed to represent applicant on
September 30, 2016.

2.

Wise met with applicant on September 30, 2016, to discuss the
charges against him.

3.

Applicant was indicted on March 9, 2017, for the offense of
possession of a controlled substance, methamphetamine, of 4
grams or more but less than 200 grams, with intent to deliver.

4.

Wise met with applicant on April 3, 2017, and went over the
offense report with him and discussed the possibility of a
motion to suppress.

5.

Wise received discovery from the State on April 25, 2017,
which did not include video recordings.

6.

Wise met with applicant again on May 5, 2017, and again
discussed potential suppression issues.

7.

In his meetings with applicant, Wise explained that the video
evidence, or lack thereof, would be crucial to determine the
probability of success on a motion to suppress.

8.

Wise met with applicant on June 6, 2017, at a plea negotiation
docket.

9.

Wise filed a motion to suppress that day at applicant’s
insistence.

10.

The State’s plea offer on June 6, 2017, was 25 years TDCJ
which applicant rejected.

11.

Wise received the videos from the State on June 6, 2017, and
reviewed them on June 13, 2017.

12.

Wise met with applicant on June 13, 2017, and informed him
that the videos contradicted applicant’s claims surrounding the
traffic stop at issue and the only possible suppression issue
would not affect his prosecution.

13.

Applicant rejected the possibility of a 12 year plea offer on June
13,2017.

14.

Wise informed applicant on June 13, 2017 that if he proceeded
with a suppression hearing the State would withdraw any plea
offer.

15.

A suppression hearing was scheduled for September 22, 2017
and applicant’s trial was scheduled for September 25, 2017.

*Jf

16.

Wise met with applicant on September 13, 2017, and
September 19, 2017, to discuss trial strategy and potential
outcomes of the motion to suppress.

17.

Wise also spoke to three witnesses and spent time preparing
for the hearing on the motion to suppress.

18.

Wise and applicant appeared in court on September 21,2017
at a trial call.

19.

At the trial call, the State waived an enhancement paragraph
and made a plea offer of 10 years In TDCJ.

20.

Applicant agreed to the State’s 10-year plea offer.

21.

Wise went over, line by line, the written plea admonishments,
judgment, and waiver of appeal that the State had prepared.

22.

Wise explained that applicant was waiving his right to a hearing
on his motion to suppress.

23.

Applicant acknowledged that he understood that he was
waiving his right to a hearing on his motion to suppress.

24.

Applicant understood that he was facing a much larger
sentence had he proceeded with his motion to suppress and
trial.

25.

Applicant told Wise that another reason he was entering the
plea agreement was because he believed it could help him
negotiate a lower sentence in his then pending Coleman
County case.

26.

Applicant signed the written plea admonishments, affirming that
he had read them, fully understood them, was aware of the
consequences of his plea, and had no questions about the
admonishments.

27.

The written plea admonishments show that applicant was
informed that he faced a first degree punishment range of a
term of 5 years to life and a fine of $10,000 or less.

28.

Applicant also signed a judicial confession stating that he was
guilty of the offense and agreeing that he was waiving and
abandoning all pleadings made before the entry of the plea,
that he was aware of the consequences of his plea, that he was
satisfied with his attorney’s representation, and that he was
waiving his right to appeal.

29.

The trial court accepted applicant’s plea, followed the plea
agreement and entered judgment on September 21,2017,
finding applicant guilty and sentencing him to 10 years in the
Institutional Division, TDCJ.

30.

Applicant signed the trial court’s certification of his right to
appeal on September 21, 2017, which stated that applicant had
no right of appeal because it was a plea-bargained case and
that applicant had waived his right to appeal.

31.

Applicant’s plea was knowingly and voluntarily entered and
applicant understood the consequences of his plea, including
his waiver of his motion to suppress and his waiver of his right
to appeal.

32.

Applicant has not shown that there was false testimony in
another case and he fails to show how any false testimony in
another case would have affected his plea in this case.
Conclusions of Law

1.

Applicant did not receive ineffective assistance of counsel. See
Strickland v. Washington, 466 U.S. 668, 687 (1984).

2.

Applicant has not shown cumulative due process violations. Cf.
Dancy v. State, 728 S.W.2d 772, 782 (Tex. Crim. App. 1987).

3.

The Court recommends that Applicant’s six grounds for relief be
denied.

•ir<

On this day it is the Order, Judgment, and Decree of this Court that
the above memorandum, findings of fact, and conclusions of law are
hereby adopted and approved by this Court. The clerk of this Court is
hereby ordered to provide a file-marked copy of this Order to the parties
through counsel, if any, and to include same in its supplemental clerk’s
record which is to be prepared and delivered to the Court of Criminal
Appeals immediately.
Signed this the__ 21

day of April, 2020.

JITOGE PRESIDING
415th Judicial District Court
Parker County, Texas

' r;rom:Colaraan Sheriffs Office

THE STATE OF TEXAS

V.
RJGGIN GIDEON VALLEY
THE STATE OF TEXAS
COUNTY OF COLEMAN

32S6253509

06/17/2 016 20:11

#706 P.002/003

£
£
§

Manufacture, Delivery, or Possession of
Miscellaneous Substances
Sec. 481,119

§

>= 200G < 400G

S

i
Complaint
IN THE NAME AND BY AUTHORITY OF STATE OF TEXAS
BEFORE ME, the undersigned authority, personally appeared:
KENNY NABERS
Die affiant herein, a peace officer under the laws of Texas, who, being duly sworn, on oath, made
the loJlowmg statements and accusations: •
My name is KENNY NABERS, and I am commissioned as a peace officer by the State of Texas.
1 hereby state upon my oath that I have reason to believe and do believe that heretofore, lo-wit: on
or about the 11TH day of JUNE, 2016, and before the making and filing of this complaint, in the
County of Coleman and State of Texas, that
Valley, Riggin Gideon, DOB: 05/13/1985;
did then and there, Commit the offence of Manufacter/Delivery of Controled Substance
Pchlty Group l > = 2G0G>400G a first degree felony offence;
Against the laws of the State.
Affiant's belief is based upon the following:
On 6/11 /16 Deputy Kenny Nabers dispatched to a reckless driver call comeing in from brown
coupty on hwy 67. TheVehilcle discriped was Maroon in Color exiented cab chevy pickup.
While Nabers was enroute the Coleman County Jail advised Nabers that the pick up had pulled
over on the south side of the road way just east ofFM 1176. Nabers seen the pickup and went and
to check on the truck the driver of truck was identifed as Riggin Gideon Valley. Valley did hot
know where he was traveing to or the road he was on and acted very nerviosly. Nabers asked
Valley if he would give him concent to search the vehicle and he deined concent. Nabers then
contael K9 Deputy Archie Lancaster to deploy K9 Nica around the pickup to do a free air search
of the vehicle. K9 Nica alarted to the vehicle. A seareh was then performed on the vehicle and
recwered^ntlw vehicle was 248 grams ofmethampbetamines, packaging material, scale, and a
Based on the aforementioned facts and circumstances, Affiant requests issuance of an arrest
warrant, charging Riggin Gideon Valley with the offense of Manufacture, Delivery, Or Possession
of Controlled Substance Penalty Group I, a 1 st Degree Felony.
jf

affiant

lv<v

%

l/H/atk mM'h (£^ ^ J

f
,

' From:Col9man Sheriffs Office

3256253509

06/17/2016 20111

#706 P.O03/003

SWORN TO AND SUBSCRIBED TO BEFORE ME BY SAID AFFIANT this 11 th day
of June, 2016.
J

'X

K^'Msc^ PfY\cZ3AA~J

NOTARY PUBLIC, STATE OF TEXAS

^ -O'.

\

vs^juJr 1L
r*

l
1

COLEMAN COUNTY SHERIFFS OFFICE

A

Incident Report
100 LIVEOAK STREET #101 COLEMAN, TX 76834

Sheriff Wade Turner

Phone: (325) 625 - 3S0S Fax: (32S) 525 - 3509

OR]

County

TX0420000

COLEMAN

Venue
COLEMAN
Occurrence Date l Tim®
06/11/2016 15:30 Hrs - 06/11/2016 17:00 Hrs

Report Date / Time
06/13/2016 09:08 Hrs
(US/Centrat)

.

Report#
2016-000044

File Class
35990004

(US/Centra!)

Nature of Incident; Poss Of Controlled Substance

Supplements: Initial Report (2)
On Saturday June 11. 2016 at approximately 04:00 PM Coleman County Sheriffs Department received a call
k> service from Brown County Shenffs Department in reference to a wreckless driver on US Highway 67/84
Coleman County Shenffs Department made contact with a vehicle matching the description provided at Us'
Highway 67/84 east ofFM 1176 near Santa Anna, Texas. Contact was made with the driverjfollowed by a

Summary:

248 9,ams 0,a

Incident Location
Address:

Us Highway 67/84

City:
Santa Anna
ZIP:
76878
Tovmshlp of Occurrence:
Intersection:

County:

COLEMAN

State:

Texas

Country: United States of America

Fm 1176

Incident Offenses
Supp # Offence
0

Status
35990004 - Man Del Cs Pg 1 >=200g <400g - 481.112(E): Cleared by Arrest

Status Date
06/11/2016 15:30 Hrs

Officers Involved

Role
Assisting

Name
Deputy A. Lancaster il (#503)

Reporting

Deputy K. Nabers (#506)

Agency
COLEMAN COUNTY
SHERIFF'S OFFICE
COLEMAN COUNTY
SHERIFF'S OFFICE

Supp $
0
0

Incident People
.Suspect / Offender

Supp# 1

Name: VALLEY, RIGGIN GIDEON (Primary
Title:
Date of Birth: 05/13/1985
Name)
Race:White
Sex: M
Age at Occurrence: 31 Years Old
DL#: 08166912 (Texas)
Address:
1704 MH379 MINERAL WELLS, TX 76067 (Date of Info: 06/13/2016)
Physical Description: Hgt:600
Hair: Brown
Skin: Light
Eyes: Green

Wgt: 200

Date of lnfo:06/11/2016
Length: Short
Build:Medium

Incident Organizations
Report Run On: TUESDAY JUNE 14. 2016 02:00:28 PM

By: KN

Page 1 of 7

c
V

o

Ti

/

I

Victim

2016-000044 - COLEMAN COUNTY SHERIFFS OFFICE - Coleman (TX<2)

Society

Incident Property
Property Index ID: 110008181
Property:
Drugs / Narcotics Controlled Substance

8upp& 0

Loss Type: Seized (NOT previously stolen)
Status:
Seized
Damage:

Value:

Drug Type: Meth/Amphetamines

Property Index 10:110008182
Property:
Cash

Quantity
0

Us Dollars
Denomination
UNKNOWN

Property Status Type
Seized (NOT previously stolen)

$ 0.00

Drag Quantity:

248

Gram

Supp ft 0

Loss Type:
Status:
Seized
Damage:

Currency:

Offense: 35990004 Man Del Cs Pg 1 >=200g <400g-481.112(E)
F*

Value:

$ 1,990.00

Amount: $ 1,990.00
’ota! Value
1,990.00
1,990.00

Aggregate Value
$ 1,990.00 .
$ 0.00

Grand Total of Property Loss: $ 1,990.00

Incident Narratives
Tffie: Original Narrative
Author Kenny Nabers

___________ Data/Tims: 06/14/2016 09:23 Hrs

Supp ft o
On 06/11/2016 around 330pm The Coleman County Sheriffs Office received a call of a reckless
dnver coming in to Coleman County on highway 67 from brown county TX heading west The
Caller stated that it was a maroon in color extended cab Chevy pick up.

Deputy Kenny Nabers responded to (he call. Nabers was in the city of Coieman when he
received the Call. Nabers traveled towards highway 67 right before entering Santa Anna city
• "ngCgierrignCounty Jailcontacted Nabers over the radio statino that the vehicle had
storii t^d ea^-°f |Santa Anna where the Texas Department ofTririsportition (TXDOT)

Nabers observed the pickup described above sitting south of the road up against the fence on
taD527059GPerty ' N-^-Pulled UP to^e Maroon 2001 Chevrolet pickup bearing temporary

Nabers observed a white male messing around with something in his back seat. Nabers made
contact with Male who identified his seif as Riggin Gideon Valley DOB 05/16/1985
Report Run On: TUESDAY JUNE 14. 2016 02:00:28 PM

By: KN

Page 2 of 7

...

2_(pwf'y

(

0s\

5=^

seconds and-shut the door then walked around and sat in the drivers side of the Vehicle.
^!Z^rnl
rh^^rsina-iS

$Pf6 {° Va"ey a9ain‘ Nabers asked Valfey were was Madrid TX located

SU,h ***** ^ Lknow lf he was going the right direction«if®IifP
V 6y hen s,ated that y°u teke hwy 357 here and'pointed aTthe
Highway. Nabers stated that, that highway was hwy. 67 not highway 357. Valley
was confused
seeSf^Pd AmW3d °u
3Sked Valiey what his Spends name was he was going to go
vom

j^giddgwe concent to search his vehicle . He^Whf^OTth^biTiii^ to. blah^nid \/ n ik
°L n° question* Va,ley st'lfwouldnotgi ve Nabers a Yes ^N^Nabers then
Id Valley that Since he would never answer yes or no he would just take it as a No Nabers
advised him that it was his right to refuse a search on his vehicle. Nabers informed Valley that
he was going to contact the K9 Deputy and have him enroiite fo do a free air sniff around fhp
outside of the vehioie. Valley then rdled up his window on N. *£! aZITJfheZT
Nabers then contacted K9 Deputy Archie Lancaster to come to the location Nabers
Nabers asked Lancaster where Madrid TX was at he stated that it was down cios was at.
e to the
boarder of Mexico.
l^ah^S_had_yalley sit in the front seat of his patrol truck while waiting on the K9 Deputy to

S6d Va!ey 39a'n Wh6re hS W3S headed he stated madrid TX. Nabers informed him

Deputy Archie Lancaster and K9 Nica arrived on scene.
Lancaster walked around the vehicle then got K9 Nica out of the back seat of his truck and ran
er around Valleys truck. K9 Nica gave positive indication on the Vehicle. Lancaster then put K9
Nica 'nside of his patrol truck and conducted a probable cause search on Valleys truck Nabers
stayed by his vehicle with Valley while Lancaster searched the vehicle. Lancaster started with
the dnvere side door, in the side pocket Lancaster found a small clear plastic bag with what
_cont3ined a crystal like substanBTNibere field tested it with Na7k¥trfm?n'd it tested
Report Run On: TUESDAY JUNE 14. 20161)2:00:28 PM

By: KN

Tage 3 of 7

.

-

/A \fnlAAjj c (Xl/^

■m

t

20:wxx>04< . COOEMAH COUWTY SHERIFFS OFFICE • Cofeman (TX<2)

for methamphetamine.

At that time Nabers advised Valley that he was placed under arrest for possession of Controlled
Substance.
Nabers placed Valley in handcuffs then placed him in the Caged back seat of his patrol unit.
Nabers then went and assisted Lancaster with searching the vehicle.

had just-b^n,placed there^TRere'wss TfcTsurTfa de Ordusion-the bag.-Theb§g contained 23C: gr^^-Mg|h2mph6^mirie-ahd a glass siWkinqmbeand^scald^hcT- --•severalsmall clear.plastic'baggies;^ : J
— ------- —-=i——:---------- ■—~J
There was 2 GPS devises in the in the pickup and muiliple cell phones. One of the cell phones
was in a small cloth bag hanging from the rearview mirror. There was also a small little push rod
the^6 ^ef|'iC,e f°r normalfy for cleaning smoking pipes. There was also multiple butane lighters in

Nabers seized all the cell phones and gps units and will be writing a search warrant for the
information off of the cell phones.
Nabers also seized Valleys cash he had in his wallet what came out to a total of $1,990 due to
there being packaging and scales and methamphetamine being found.
Valley was transported to The Coleman County Sheriffs Office to be booked in. Then was
transported to Runnels County Jail with out incident.
The total amount of meth that was seized from Valley including the bag in the door was 248
grams of methamphetamine

| Signed: Deputy K. Nabers (#506)

Report Run On: TUESOAY JUNE 14. 2016 02:00:28 PM

Reviewed By:

By: KN

Page 4 of 7

(

2016-000044 - COLEMAN COUNTY SHERtrPS OFFICE - Coteman (TX42)

TKia: Supplemental - Narrative
Author. ARCHIE LANCASTER

Date/Time: 06/13/2016 11:52 Hrs

Supp (?: 1

On Saturday June 11,2016 at approximately 04:10 PM Deputy Lancaster received a call to
service from Deputy Kenny Nabers requesting K9 for Free Air Sniff of vehicle on US Highway
67/84 east of Farm and Market 1.176 in Coleman County, Texas. Deputy Nabers reported that
he had received a call to service in reference to a Wreckless Driver on US Highway 67/84
coming into Coleman County, Texas from Brown County, Texas. Deputy Nabers reported that
he had discovered a vehicle matching the description of the_ report parked in the area off US
Highway 67/84 where the Texas Department of Transportation stores road material.
Deputy Nabers reported that he believed the sole occupant, a male subject identified as Riggin
Gideon Valley (DOB 05/13/1985) was involved in Criminal Activity, and requested Deputy
Lancaster and K9 Nica perform an openair sniff of the vehicle.
Deputy Lancaster arrived on scene and noted a Maroon in color 2001 Chevrolet 1500 extended
cab pickup bearing Texas Temporary Tag Number 527059G parked on the south portion of the
area next to the fence line facing east. Deputy Lancaster noted occupant of the vehicle to be
setting in the front passenger seat of the Deputy Nabers patrol vehicle, conversating with
Deputy Nabers. Deputy Lancaster identified himself to Riggin Valley and advised him that
Deputy Lancaster was the K9 Handler for the Coleman County Sheriffs Department with duties
of Criminal Interdiction. Deputy Lancaster requested Riggin Valley speak with Deputy Lancaster
and answer some questions. Deputy Lancaster noted Riggin Valley to advise that he did not
wish to answer any questions at that time. Deputy Lancaster then performed a preliminary walk
around the vehicle, for officer and K9 safety, checking the area for any items that could
potentially harm or injure (he general public, K9 Nica, or Deputy Lancaster.

y
i

■

-Doputy Lancaster noted/qn_preliminary checj£) a black and blue colored neoprene type sleeve
or carrying case setting on the ground nexfto the fence, directly outside the passenger door of
the vehicle in custody of Riggin Valley. Deputy Lancaster noted the black and blue colored case
to have been recently placed on the ground, showing no signs of weathering or dust on it, noting
other items in the same area and vicinity to be covered with dust and appear weathered and
faded in color. Deputy Lancaster left the item were it was located and continued with safety
check, later retrieving Police Service Dog PSD) Nica.
Upon removing PSD Nica from the patrol vehicle, Deputy Lancaster walked PSD Nica around
the area behind his patrol vehicle allowing her time to relieve herself and acclimate to the area.
Deputy Lancaster then walked PSD Nica to the front drivers side bumper of the vehicle and
began the free air sniff of the vehicle. Deputy Lancaster notes that the wind was blowing from
the passenger side (south) side of the vehicle in a northern direction. Deputy Lancaster
provided PSD Nica with her search command and began casting PSD Nica down the driver side
of the vehicle in a westwardly direction. Deputy Lancaster noted PSD Nica to begin showing
interest to the area under the driver side of the vehicle, noting the wind to be traveling from
south to north possibly across and under the vehicle. Deputy Lancaster continued moving
around the vehicle noting PSD Nica to begin alerting to the area near the passenger side door of
the vehicle, moving off the vehicle to the black and blue case setting on the ground, before
giving a positive indication to the odor of narcotics. Deputy Lancaster then performed a form of
reward called "cheating off" and continued the free air sniff around the vehicle noting no alerts or
changes in behavior to the front engine compartment or bed of the vehicle. Deputy Lancaster
began secondary pass of the vehicle detailing areas of shown interest on previous pass, noting
Report Run On: TUESDAY JUNE 14. 2016 02:00:28 PM

By: KN

Page 5 of 7

.. .(fjfaekwA.W' z&Jrt)

(

2016-000OW • COLEMAN COUNTY SHERIFFS OFFICE - Coleman (TX42)

PSD Nica {o again alert to the area around the bottom right comer of the door seam of the
drivers door, before giving a final indication to the bottom right comer of the drivers door.
Deputy Lancaster again performed a reward of "cheating off’, and at that time placed PSD Nica
back into the patrol vehicle.
Deputy Lancaster then performed aorobable_cause search of the vehicle and area around the
vehicle due to the two (2) indications received from PSD Nica, indicating the presence of
narcotics at the driver side door and to the black and blue case located beside the passenger
door. Deputy Lancaster began a systematic search of the vehicle starting at the driver side
door, discovering a small plastic Ziploc type baggy with a white label having the words Pill
Pouch on it containing a crystal like substance consistent with methaphetamines.
Deputy Lancaster noted the small Ziploc baggy with crystal like substance to be discovered in
the driver side door panel in the door panel factory compartment located on the bottom right
corner of the door, if looking at the door with it in the closed position. Deputy Lancaster then
advised Deputy Nabers of the crystal like substance found inside the vehicle, noting Riggin
Valley to immediately disclaim the item. Deputy Lancaster noted Deputy Nabers to then detain
Riggin Valley on the suspicion of Possession of a Controlled Substance, placing him in
handcuffs and securing him the back seat of his patrol vehicle. Deputy Lancaster released the
crystal like substance to Deputy Nabers, who then performed and preliminary field test of the
substance for presence of methamphetamines, using a Narcotics Analysis Reagent Kit (Nark II),
which test positive for the presence methamphetamines.
Deputy Lancaster continued the systematic search of the vehicle, noting multiple butane type
lights commonly used with the consumption of methamphetamines, in the cab of the vehicle,
along with what appeared to be a recently opened pouch of coffee, which was discovered in the
front passenger door compartment emitting the strong aroma of coffee. Deputy Lancaster later
discovered a small wire with small bristle on one end, commonly referred to as a push rod in the
back floor of the passenger compartment. Deputy Lancaster noted multiple cellular phones in
. the compartment area of the vehicle, along with two (2) GPS units and note pad on the front
center console area displaying an address in Menard, Texas. Deputy Lancaster noted
Deputy Nabers to inform him upon arrival that Riggin Valley was initially reporting to be traveling
to Mandrid, Texas and later informed him he was traveling from Mineral Wells, Texas to Menard,
Texas. Deputy Lancaster notes that through his experience and training subjects involved in
criminal activity often have in their possession numerous cellular phones, push rods, and Items
inside the vehicle used to attempt to cover the odor of illegal narcotics.
Deputy Lancaster and Deputy Nabers continued the search of the vehicle seizing the cellular
phones, GPS units, noted pad, and "push rod" as evidence. Deputy Lancaster then requested
Deputy Nabers to photograph the black and blue neoprene type case located outside the
passenger door of the vehicle as evidence. Deputy Lancaster noted Deputy Nabers to advise
that upon contact with Riggin Valley, Deputy Nabers noted him to move to the passenger side of
the vehicle, open the door, and begin messing with something, which he believed was his
speaker box. Deputy Lancaster obtained the black and blue case noted it to contain inside of it
two smaller zipper type cases. Deputy Lancaster and Deputy Nabers removed the two smaller
zipper type cases, which were then opened and revealed a large amount of crystal like
substance wrapped in clear plastic, a small Ziploc type baggy containing a crystal like
substance, digital scales, a glass pipe commonly used for smoking illegal narcotics (which
contained an burnt residue inside the bowel of the pipe), numerous other small Ziploc type
baggies containing the same white label reading Pill Pouch, found on the Ziploc baggy
Report Run On: TUESOAY JUNE 14. 2016 02:00:28 PM

By: KN

Page 6 o' 7

*7

f

i

r
2016-000044 - COLEMAN COUNTY SHERIFFS OFFICE • Cotemsn (7X42)

containing crystal like substance in the driver door of the vehicle. Deputy Lancaster noted the
amount of crystal like substance located inside the black and blue case to be contain a
preliminary weight of Two Hundred and Thirty (230) grams. Deputy Lancaster notes that
through his 6 years of experience and training in criminal interdiction and narcotics, the amount
of methamphetamines obtained was indicative of Manufacture and Delivery of a Controlled
Substance, not mere persona! use. Deputy Lancaster released all seized items to
Deputy Nabers, noting Deputy Naber to transport the seized items and Riggin Valley to the
Coleman County Sheriffs Department. Deputy Lancaster noted Deputy Nabers to advise that
Riggin Valley was discovered to be in possession of Nineteen Hundred and Ninety Dollars
($1,990,00), which was seized by Deputy Nabers.
Deputy Lancaster has been an active Peace Officer for the Coleman County Sheriffs
Department for Six (6) years, obtaining specialized training in Criminal Interdiction and
Narcotics. Deputy Lancaster notes that throughout his career his has made numerous arrest
involving the possession, manufacture, and delivery of Controlled Substance. Deputy Lancaster
currently is certified through Polizeispuerhundpruefung (PSP) Narcotics Detection Dog
Certification, with recent certification in May of 2016. Deputy Lancaster has been the certified
K9 Handler of PSD Nica for one and one half (1 1/2) years and with PSD Nica noted to received
her PSP Narcotics Detection Dog Certification in May of 2016. PSD Nica is noted to be trained
in the detection of Marijuana, Methamphetamines, Cocaine, Heroin, Ecstasy, and
Mushrooms. PSD Nica is noted to be trained with a passive indication, being upon locating
source of the trained controlled substance PSD Nica will sit and stare at source.
It is Deputy Lancaster belief that Riggin Gideon Valley committed the offense of
Manufacture/Delivery of a Controlled Substance Penalty Group 1 Greater Than Equal to 200
Grams but Less Than 400 Grams, being Methamphetamines, by possessing with the intent to
deliver a controlled substance listed in Penalty Group 1 with an aggregated weight including
packaging of Two Hundred and Forty-Eight (248) grams.

Signed: Deputy A. Lancaster (#503) .

Report Run On: TUESDAY JUNE 14. 2016 02:00:28 PM

Reviewed By:

By: KN

Page 7 of 7

